               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




      Caribbean District Financial Risk

                       Audit Report




                                         September 30, 2011

Report Number FF-AR-11-017
                                                                   September 30, 2011

                                                    Caribbean District Financial Risk

                                                         Report Number FF-AR-11-017




IMPACT ON:
Financial operations in the Caribbean        WHAT MANAGEMENT SAID:
District.                                    Management agreed with our finding,
                                             recommendation 1, and $336,584 of
WHY THE OIG DID THE AUDIT:                   monetary impact. They also indicated
Our objective was to determine whether       agreement with recommendation 2.
the U.S. Postal Service is effectively
managing selected financial controls         Management stated that, in addition to
over post office retail and business mail    local monitoring efforts, the Caribbean
entry operations in the Caribbean            District uses monitoring tools provided
District.                                    by the Northeast Area to take necessary
                                             follow-up action on identified
WHAT THE OIG FOUND:                          deficiencies. Further, significant
The Postal Service did not effectively       improvements have been demonstrated
manage selected financial controls in        in various indicators and have continued
the Caribbean District. Specifically,        to improve as a result of the efforts and
district management did not effectively      initiatives implemented. Also,
review and monitor financial data to help    management continues to monitor the
ensure that retail units recorded revenue    offices with on-site and desk audits and
correctly and reduced the risk of            continuous visits.
potential revenue loss and placing other
Postal Service assets at risk. We            Management also stated they
identified $336,584 of monetary impact       conducted a number of financial training
and referred several of our findings to      sessions with district and unit managers.
the OIG Office of Investigations.
                                             AUDITORS’ COMMENTS:
WHAT THE OIG RECOMMENDED:                    The OIG considers management’s
We recommended the area vice                 comments responsive to the
president, Northeast Area Operations,        recommendations and management’s
direct the district manager, Caribbean       corrective actions should resolve the
District, to review and monitor financial    issues identified in the report.
operations and incorporate follow-up
procedures to ensure retail units’           Link to review the entire report
compliance with internal controls, data
accuracy, and records maintenance;
and provide interim financial training for
district and unit managers.
September 30, 2011

MEMORANDUM FOR:             STEVEN J. FORTE
                            VICE PRESIDENT, NORTHEAST AREA OPERATIONS

                                    E-Signed by Kevin Ellenberger
                                   VERIFY authenticity with e-Sign
                                     Friday, 30 September, 2011


                            for
FROM:                       John E. Cihota
                            Deputy Assistant Inspector General
                             for Financial Accountability

SUBJECT:                    Audit Report – Caribbean District Financial Risk
                            (Report Number FF-AR-11-017)

This report presents the results of our audit of the Caribbean District’s financial risk
(Project Number 11BD003FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Field Financial East, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Timothy F. O’Reilly
    Deborah Giannoni-Jackson
    Elizabeth A. Doell
    Laurie A. Timmons
    Jesus Galvez
    Corporate Audit and Response Management
                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Reviewing and Monitoring Financial Data ....................................................................... 1

Recommendations .......................................................................................................... 3

Management’s Comments .............................................................................................. 3

Evaluation of Management’s Comments ......................................................................... 4

Appendix A: Additional Information ................................................................................. 5

   Background ................................................................................................................. 5

   Objective, Scope, and Methodology ............................................................................ 5

   Prior Audit Coverage ................................................................................................... 7

Appendix B: Monetary and Other Impacts....................................................................... 9

Appendix C: Detailed Analysis ...................................................................................... 11

Appendix D: Management’s Comments ........................................................................ 17
Caribbean District Financial Risk                                                                     FF-AR-11-017




Introduction

This report presents the results of our Caribbean District financial risk audit (Project
Number 11BD003FF000). The objective of our audit was to determine whether the U.S.
Postal Service is effectively managing selected financial controls over Post Office™
(PO) retail and business mail entry (BME) operations in the Caribbean District. This
self-initiated audit addresses financial risk. See Appendix A for additional information
about this audit.

The Caribbean District is part of the Northeast Area and includes 171 POs, stations,
and branches. These units reported approximately $186 million of revenue in fiscal year
(FY) 2010. The U.S. Postal Service Office of Inspector General (OIG) Performance and
Results Information System (PARIS) Cost and Controls model ranked the Caribbean
District’s financial operations in the 10 most at-risk districts nationally throughout
FY 2010. We looked at district financial practices and the impact they had on selected
financial controls at nine units with $21.7 million in revenue in FY 2010.

Conclusion

The Postal Service did not effectively manage selected financial controls in the
Caribbean District. Specifically, the district did not review and monitor financial data to
help ensure retail units recorded revenue correctly and reduced the risk of potential
revenue loss and placing other Postal Service assets at risk. We identified $336,584 of
monetary impact and $23,595 in other impacts. In addition, we referred several of our
findings to the OIG Office of Investigations.

Reviewing and Monitoring Financial Data

The Caribbean District did not effectively review and monitor financial data. Specifically,
district management did not:

   Review and monitor financial data discrepancies related to unit trust fund
    transactions. Specifically we noted units were not recording revenue and trust fund
    transactions properly or closing inactive accounts and were allowing customers to
    mail with negative balances. For example, at nine units visited, we found the unit did
    not record $268,203 of revenue to the automated accounting records. Additionally,
    we found 10 units whose overall trust balance did not change in FY 2010, yet the
    units recorded revenue from customers in the accounting system. 1 Therefore, the
    units were not recording deposits to nor recording withdrawls from the customer trust
    funds as transactions occurred. As a result, retail units’ trust account balances were
    inaccurate.

1
  A trust fund account is a liability for which the Postal Service owes service to a customer or the account may
represent an amount for which a future claim can be made for funds on deposit. The Postal Service is responsible for
maintaining an accurate accounting of customer funds.

                                                         1
Caribbean District Financial Risk                                                                        FF-AR-11-017



   Monitor practices associated with unit financial operations that would have indicated
    there were potential problems with financial controls. Specifically, our review of
    financial data showed large dollar amounts of refunds, employee items, banking
    differences, and stamp stock discrepancies. For example, at six units visited, we
    found $6,140 in unsupported refunds. In addition, at three of these units we found
    $469 in refunds for 11 Express Mail® transactions where the package had been
    delivered.

These conditions occurred because district management did not:

   Analyze financial data or follow up to ensure units addressed and corrected any
    reported financial inconsistencies. District management believed that postmasters
    were conducting oversight at their respective retail units.

   Provide needed financial training to unit management. At the nine sites visited, unit
    level managers did not always have the financial knowledge needed to comply with
    accounting and reporting policies. We found that unit managers received fewer than
    10 hours of training on financial controls in the past 5 years. On average, each
    manager received 5.5 hours of financial training in the past 5 years. In addition, we
    did not find that unit managers were using the Postal Service’s 11 “Field Finance
    Toolkit”2 online courses to help them comply with financial requirements.

   Request that PostalOne! be installed at units with annual permit imprint and/or
    business reply mail/postage due (BRM/PD 3) sales of $10,0004 or more to provide
    additional internal control capability. PostalOne! enables district management to
    directly monitor unit accounts for compliance with Postal Service policy; ensure
    timely recording of transactions; monitor account balances for inactivity, negative
    balances, and the payments of fees; and monitor business mail entry unit (BMEU) 5
    functions, such as the recording of postage statements.

As a result, retail units did not record revenue correctly, created situations for potential
revenue loss, and placed other Postal Service assets at risk. Specifically, unit financial
practices resulted in:



2
  Provides training, references, and useful links to help Postal Service employees understand and perform their
required financial duties and responsibilities. The 11 courses consist of the following: Customer Trust, Daily Financial
Reporting Basics, Employee Items, Field Unit Purchasing and Payment Processes, Financial Accountability
Overview, Financial Differences Account Identifier Code (AIC) 247-647, Financial Security, No-Fee Money Orders,
Stamp Stock Management, Timekeeping, and Unit 1412 Closeout.
3
  BRM service enables a permit holder to receive First-Class Mail® and Priority Mail® items back from customers and
pay postage and a per piece fee only for the pieces returned. Postage due mail customers must pay in cash for
postage due mail before the mail is delivered. Payment may be made by advance deposit of money in a postage due
account used solely to pay postage due.
4
  Postal Service Headquarters was originally targeting sites with $50,000 or more in permit imprint and/or BRM/PD
sales for PostalOne! installation.
5
  A Postal Service facility that processes bulk business mail. Mailers submit business mail for below retail prices to a
BMEU.

                                                           2
Caribbean District Financial Risk                                              FF-AR-11-017



   Revenue loss of $268,203 from unrecorded customer transactions at nine units. We
    also identified revenue loss of $43,897 associated with inactive accounts.

   Questioned costs of $24,484 associated with units’ financial practices related to
    refunds, employee items, financial differences, and unit stamp stock management.

   Other impacts of $23,595 associated with an unrecorded financial transaction.

See Appendix B for a summary of the details of the monetary and other impacts found
during the audit.

During the course of the audit, district and area management took corrective action to
improve unit financial controls in the Caribbean District. Specifically, the Caribbean
District and Northeast Area:

   Developed several financial training courses for unit managers and began holding
    “Field Finance Toolkit” training courses with unit employees.

   Worked with the bank to reduce banking differences through unit level training on
    bank deposit procedures and district notification of errors.

   Initiated procedures to clear and/or collect outstanding employee items.

   Installed PostalOne! in all offices with $10,000 or more in BME and BRM/PD
    revenue so district management would have direct oversight into unit financial
    operations.

See Appendix C for a detailed discussion of the conditions found during the audit.

Recommendations

We recommend the vice president, Northeast Area Operations, direct the district
manager, Caribbean District, to:

1. Review and monitor financial operations and incorporate oversight and follow-up
   procedures to ensure that retail units comply with internal controls, data is accurately
   reported, and records are maintained.

2. Provide financial training for all district and unit managers to include available
   finance courses the district developed and the Postal Service’s 11 “Field Finance
   Toolkit” courses.

Management’s Comments

Management agreed with our finding, recommendation 1, and $336,584 of monetary
impact. Management also indicated agreement with recommendation 2 in this report.



                                             3
Caribbean District Financial Risk                                              FF-AR-11-017




Regarding recommendation 1, management stated that, in addition to local monitoring
efforts, the Caribbean District uses monitoring tools provided by the Northeast Area to
take necessary follow-up action on identified deficiencies. The Northeast Area Financial
Scorecard demonstrated the overall improvements and consistency the Caribbean
District has maintained when compared to previous fiscal years. In addition, as of June
25, 2011, management installed PostalOne! in 22 offices to comply with internal
controls and ensure data is accurately reported. Prior to activation of the PostalOne!
sites, management assisted units with balancing trust accounts and ensuring that
revenue previously not recorded was properly accounted for in the reporting systems.
Additionally, management continues to monitor the offices with on-site and desk audits
and continuous visits.

Regarding recommendation 2, management stated they conducted a number of training
sessions during December 2010 and February 2011. Management provided training
sessions to all postmasters/managers/officers-in-charge on various financial subjects to
ensure full understanding of the policies and their responsibilities. Area Field Financial
Specialists conducted additional training during FY 2011 specific to the management of
employee items. The Northeast Area also implemented a Financial Training Series
Program in March 2011 that is conducted by field financial specialists on a regularly
scheduled cycle throughout the year. This training will occur on a continuous basis.
Subsequent to management’s response, the OIG confirmed that employees at offices
where PostalOne! was installed as a result of this audit completed two classroom
sessions and 13 web-based, Learning Management System courses dealing with
BME/BRM/PD practices by June 15, 2011.

See Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.




                                            4
Caribbean District Financial Risk                                                                    FF-AR-11-017



                                     Appendix A: Additional Information

Background

POs are the initial level where the Postal Service recognizes revenue from operations.
The term “PO” or “unit” includes main offices, stations, and branches. The postmasters
or unit managers are responsible for collecting all receipts to which the offices are
entitled, accounting for all funds entrusted to them, and ensuring the offices meet all
financial reporting and accounting objectives. To aid them with these duties, specific
policies and procedures have been established and published for units.

The district is responsible for monitoring financial reporting duties to ensure that they
are adequately fulfilled. District management is responsible for establishing and
maintaining a system of management controls that provides reasonable assurance that
transactions are executed and recorded in accordance with Postal Service policy and
that assets are safeguarded from loss. Compliance with these policies and procedures
constitutes an important aspect of the Postal Service’s management control system. All
employees must comply with established policies and procedures and management
must monitor and ensure compliance.

Based on Postal Service financial data recorded in the Enterprise Data Warehouse, the
OIG developed a PARIS Cost and Controls Model that ranks the Postal Service’s
74 districts6 according to specific financial risk indicators.7 Using model results, the OIG
performs periodic financial risk assessment audits of high-risk districts. We selected the
Caribbean District for auditing because the PARIS model demonstrated the district was
a consistently high financial risk compared to other districts. For example, throughout
FY 2010, the OIG model ranked this district as one of the 10 most at-risk districts
nationally.

The Caribbean District is part of the Northeast Area and includes 171 POs, stations,
and branches. These units reported approximately $186 million of revenue in FY 2010.
We looked at district financial practices and the impact they had on selected financial
controls at nine units with $21.7 million in revenue in FY 2010.

Objective, Scope, and Methodology

Our objective was to determine whether the Caribbean District was effectively managing
selected financial controls over PO retail and BME operations. Our audit scope covered
the period from October 2009 through December 2010.

To accomplish our objective, we identified Caribbean District POs, branches, and
stations with high-risk accounting activities based on our PARIS model and district

6
 As of March 24, 2011, the Postal Service closed seven district offices, reducing the number of districts to 67.
7
 The risk indicators include: Revenue, Local Expenses, Refunds, Miscellaneous Expenses (financial differences),
Non-Local Purchases, Clerk Cash, Office Cash, Employee Items, Master Trust Accounts, Segmented Inventory
Accountability Compliance, Stamp Stock management, and Contract Postal Unit management.


                                                         5
Caribbean District Financial Risk                                                                       FF-AR-11-017



financial performance reports. Using the PARIS model we examined the following risk
factors:

   Refunds
   Employee Items
   Financial Differences8
   Local Purchases9
   Unit Stamp Stock Management 10

We also examined BME, BRM/PD, and trust accounts11 based on revenue reported and
trends noted in financial performance reports.

We performed audit work at nine judgmentally selected POs in the Caribbean District.
We conducted in-depth financial audits at six units and limited reviews at three other
units. We selected the units based on our evaluation of risk indicators and district
financial performance reports.

                                          Site                                  Review
                          Mayaquez Main PO                                     Full
                          San Juan Main Office Window                          Full
                          (MOW)
                          Carolina Main PO                                     Full
                          Aguada Main PO                                       Full
                          Aguadilla Main PO                                    Full
                          Charlotte Amalie Main PO                             Full
                          Caugus Main PO                                       Limited
                          Old San Juan Station                                 Limited
                          Hato Rey Station                                     Limited

We used unit level results to evaluate the effectiveness of district financial management
practices, improvements, and changes implemented during the audit.

At the district level we examined changes in financial practices made by management
since assignment of the district manager in 2008. We evaluated the effectiveness of
those changes and also determined whether the changes in financial practices were a
result of Postal Service-wide directed actions or directed by district management.
Additionally, we examined Postal Service Headquarters guidance for monitoring,
evaluating, and correcting financial performance and district-level financial management
controls and processes.


8
  Financial differences are recorded in AICs 247 and 647 from the unit’s daily Postal Service (PS) Form 1412, Daily
Financial Report.
9
  Goods and services purchased from local vendors, usually with cash or money orders.
10
   Unit stamp stock is assigned to various individuals to manage. These individuals must maintain security of all stock
and ensure financial integrity is maintained.
11
   A customer trust fund account is a liability account for which the Postal Service owes service to a customer or the
account may represent an amount for which a future claim can be made for funds on deposit.


                                                           6
     Caribbean District Financial Risk                                                                     FF-AR-11-017



     We conducted this performance audit from October 2010 through September 2011 in
     accordance with generally accepted government auditing standards and included such
     tests of internal controls as we considered necessary under the circumstances. Those
     standards require that we plan and perform the audit to obtain sufficient, appropriate
     evidence to provide a reasonable basis for our findings and conclusions based on our
     audit objective. We believe that the evidence obtained provides a reasonable basis for
     our findings and conclusions based on our audit objective. We discussed our
     observations and conclusions with management officials on August 24, 2011, and
     included their comments where appropriate.

     We assessed the reliability of computer-generated data by tracing computerized data
     from the Postal Service’s Accounting Data Mart (ADM) 12 to source records at selected
     POs. We determined that the data were sufficiently reliable for the purposes of this
     report.

     Prior Audit Coverage

     The OIG issued 13 audit reports over the past 3 years that addressed district and area
     financial risk based on rankings from the OIG PARIS Cost and Controls model.


                                                                    Final
            Report Title                       Report              Report          Monetary             Other
                                               Number               Date            Impact             Impact
Sierra Coastal District – Risk-Based         FF-AR-09-072         1/15/2009         $135,938          $4,834,996
Financial Audit
Baltimore District Financial Risk Audit      FF-AR-09-123         3/20/2009         $179,124          $4,655,528
FY 2009 Phoenix Financial Risk Audit         FF-AR-09-200         7/24/2009         $166,094           $96,750
Fiscal Year 2009 Kentuckiana District        FF-AR-09-221         9/17/2009         $123,560           $108,182
Business Mail Entry Unit Financial
Risk Audit
Philadelphia District Post Office            FF-AR-09-223         9/25/2009         $945,487          $1,124,353
Financial Risk Audit
Northland District – Business Mail           FF-AR-09-224         9/28/2009           $3,664           $146.096
Entry Financial Risk
Fiscal Year 2009 Connecticut District        FF-AR-09-225         9/30/2009          $89,274           $471,356
Financial Risk Audit




     12
        ADM is one of several business areas within the EDW. The EDW is an organization-wide data storage and
     reporting system. The ADM is the accounting folder in the EDW and the “one-stop shopping” location for a collection
     of finance-related reports.



                                                              7
     Caribbean District Financial Risk                                                 FF-AR-11-017




New York Metro Area Financial            FF-AR-10-013       11/13/2009   $114,515   $386,375
Accountability Risk Audit
Fiscal Year 2009 Los Angeles District    FF-AR-10-028       12/3/2009    $250,151   $2,244,240
Financial Risk
Gateway District Financial               FF-AR-10-047       12/15/2009   $170,631   $1,880,754
Accountability Risk Audit
Greater South Carolina District          FF-AR-10-049       12/16/2009     $0       $296,590
Financial Risk Audit
Capital District Financial Risk Audit    FF-AR-10-075        1/19/2010   $20,434    $602,795
San Francisco District Risk-Based        FF-AR-11-003       12/13/2010    $8,870    $38,213
Post Office Audit


     In summary, these reports identified financial control and compliance issues and
     internal control deficiencies. Control and compliance issues were related to stamp
     accountabilities, disbursements, and financial accounting and reporting. The internal
     control deficiencies related to insufficient training, the financial background of
     employees, and oversight by the managers and supervisors responsible for
     implementing financial internal controls. The reports made recommendations to address
     these issues, and management agreed to take corrective action.




                                                        8
Caribbean District Financial Risk                                                                       FF-AR-11-017



                             Appendix B: Monetary and Other Impacts

                                               Monetary Impacts

                 Finding                       Impact Category                               Amount
              Reviewing and           Revenue Loss13
                Monitoring              Unrecorded Revenue                                   $268,203
              Financial Data            Inactive Accounts                                      43,897
                                      Questioned Costs 14                                      24,484
                                               Total                                         $336,584

Revenue Loss

The Caribbean District did not review financial operations associated with trust fund
transactions at retail units. Units did not record mailing revenue to the ADM, resulting in
differences from unit records. We identified monetary impact at units that did not record
revenue through the ADM and units with inactive accounts.

                                            Unrecorded Revenue

                                 Post Office                                Amount
                       Mayaguez                                                $129,831
                       San Juan MOW                                              46,071
                       Caguas                                                      7,156
                       Carolina                                                  26,118
                       Aguadilla                                                   6,498
                       Aguada                                                      6,661
                       Charlotte Amalie                                          38,073
                       Hato Rey                                                    2,068
                       Old San Juan                                                5,727
                                   Total                                       $268,203

                                               Inactive Accounts

                                 Post Office                                Amount
                       Charlotte Amalie                                         $14,331
                       Hato Rey                                                  21,425
                       Old San Juan                                                8,141
                                                          Total                 $43,897




13
   Amount the Postal Service is entitled to receive but did not realize because policies, procedures, agreements,
requirements, or good business practices were lacking or not followed.
14
   Unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, etcetera.


                                                          9
Caribbean District Financial Risk                                                                     FF-AR-11-017




Questioned Costs

We identified monetary impact at units where procedures for compliance with internal
controls were not followed.

                           Finding                                                 Amount
           Stamp Stock Shortages15                                                      $13,005
           Outstanding Employee Items                                                     3,439
           Unsupported Refunds                                                            6,140
           Unresolved Financial Differences                                               1,900
                                                               Total                    $24,484

                                                 Other Impacts

We identified other impacts as a result of one unit that did not record a customer BRM
deposit to unit records.

                Finding                          Impact Category                           Amount
             Reviewing and                     Assets or Accountable                        $23,595
               Monitoring                         Items at Risk 16
             Financial Data




15
   This amount is comprised of a net stock shortage of $13,624 at the San Juan MOW, a unit reserve overage of
$949 at the Mayaguez PO, and a unit reserve shortage of $330 at Charlotte Amalie.
16
   Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
inadequate internal controls.


                                                         10
Caribbean District Financial Risk                                                                 FF-AR-11-017




                                    Appendix C: Detailed Analysis

The Caribbean District did not effectively manage selected financial controls. We found
that district management did not review and monitor trust fund transactions or monitor
practices associated with unit financial operations.

Review and Monitoring Trust Fund Transactions

District management did not review and monitor the data needed to manage financial
operations. For example, Caribbean District retail units were not properly maintaining
customers trust accounts. At the Mayaguez PO, the customers’ manual subsidiary trust
account balances differed from the automated financial records by $129,831.17 Neither
the postmaster nor the acting supervisor could explain why such a large discrepancy
existed between the units’ manual records and the automated records. At the nine units
visited, we found that employees did not record mailing revenue to the automated
records, resulting in differences from unit records of $268,203. See Table 2 for the
differences at each unit visited.

                      Table 2 – Unit Trust Balance Discrepancies
                                       Unit
               Post Office          Records         ADM          Difference
        Mayaguez                         $4,589     $134,420          $129,831
        San Juan MOW                    208,969       255,040           46,071
        Caguas                                7         7,164            7,156
        Carolina                          7,235        33,353           26,118
        Aguadilla                             0         6,498            6,498
        Aguada                                0         6,661            6,661
        Charlotte Amalie                 55,468        93,540           38,073
        Hato Rey                        116,006        90,343           2,068*
        Old San Juan                     31,291        37,018            5,727
                  Total                                               $268,203
      *Excludes an unknown customer BRM deposit of $23,595 that is considered an accountable item at risk.
      Source: ADM and Unit PS Form 25.

Further, we examined district financial performance reports and found 10 units with trust
balances totaling $23,463 that did not change in FY 2010, even though they recorded
receiving revenue from customers. Each deposit and mailing should have resulted in a
trust balance entry. As a result, customer trust account balances were inaccurate. We
do not know if the customer had sufficient funds on account when they mailed
something or if they were charged appropriately for the mailing/service. See Table 3 for
units that recorded customer revenue in FY 2010 but had trust account balances that
remained constant.


17
  Master trust balances in ADM as of September 30, 2010, varied from units’ PS Form 25, Trust Fund Account,
records by that amount.


                                                       11
Caribbean District Financial Risk                                                                   FF-AR-11-017




                Table 3 – Units with Unchanged Trust Balances in FY 2010
                                      Trust Balance          Trust Balance                    FY10 Revenue
          Unit Name                     (BRM/PD)                (Permit)         Total          Recorded
Cruz Bay PO                                  $171.62                $175.00       $346.62           $12,422
Rio Grande PO                                 679.03                 239.75        918.78                 3
Villalba                                           0                 320.00        320.00             7,140
San Sebastian PO                              473.27                  53.10        526.37             1,778
San German                                    814.09               2,036.67      2,850.76             1,241
Juncos                                        819.42               2,284.94      3,104.36             4,423
Ciales                                        544.99                 100.17        645.16             4,095
Aguadilla Victoria                          1,591.60                      0      1,591.60                54
Aguadilla PO                                  567.36               5,930.29      6,497.65             5,621
Aguada                                             0               6,661.49      6,661.49                 1
                             Total         $5,661.38             $17,801.41    $23,462.79           $36,778
Source: Financial Performance Reports – ADM

We also identified $43,897 of inactive trust accounts by looking at unit records and
noting customer trust balances that have not changed in over 2 years. 18 In total, we
identified 68 inactive accounts at three units. For example, at the Hato Rey Station, we
found that 26 of the unit’s 71 permit accounts with balances totaling $21,425 were
inactive. Similarly, seven of 22 accounts with balances of $8,141 at the Old San Juan
Station were inactive. They also had two accounts with negative balances, one of which
was negative for 3 months.

In addition, at the Hato Rey Station, retail associates accepted a BRM deposit of
$23,595 from a customer who did not have a BRM account at the unit. From July 2010
until January 2011, the deposit has remained in the ADM record for the unit yet was not
recorded in local records to either an individual or summary BRM trust account. This
amount is at risk of being mishandled because unit management did not reconcile the
units trust balance with automated records or take corrective action to properly account
for the BRM deposit.

Monitoring Practices Associated with Unit Financial Operations

Our review of financial data showed large dollar amounts of refunds, employee items,
banking differences, and stamp stock discrepancies.

Refunds

In FY 2010, the Caribbean District issued $894,859 in refunds. The district’s risk ranking
is high on the OIG PARIS model because it refunds a greater percentage of sales
compared to other districts. Refunds are normally issued when services are not
rendered, mail is damaged, or a customer requests discontinuance of service. We
analyzed the types of refunds issued throughout the district. Our results found that

18
  Handbook F-101, Field Accounting Procedures, Chapter 17, dated September 2010, defines inactive BRM or
Postage Due accounts as accounts with no mailings or payment of fees during a 2-year period from the date of fee
expiration.


                                                        12
Caribbean District Financial Risk                                                                    FF-AR-11-017



55 percent of the refunds issued were for postal validation imprinter (PVI)19 errors and
27 percent were issued for Express Mail that was not delivered within the guaranteed
time period. Units may be able to reduce refunds associated with PVI errors and
Express Mail guarantees by reviewing refund procedures/policies.

At four of the sites visited, we found that refunds for 101 of 143 PVI labels refunded do
not appear to be spoiled or damaged. The labels attached to PS Forms 3533,
Application for Refund of Fees, Products and Withdrawal of Customer Accounts,
contained legible postage amounts and barcodes, if applicable, and showed no signs of
damage. This indicates that clerk error, as well as customer indecision, may be causing
a higher than normal number of refunds. The district has not performed an in-depth
analysis of refunds; however, we believe the district may be able to reduce the amount
of PVI refunds by evaluating retail associates’ processes and determining the cause of
excess refunds, thus reducing financial risk in this area.

The Caribbean District, as an island district, faces unique challenges for Express Mail.
Express Mail is generally limited to one mode of transportation (air carrier). As a result,
the district issues many refunds for Express Mail failures. In a prior OIG report,20 we
looked at Express Mail guarantees and how refunds for failure are affected in island
communities. We found that Express Mail destined to/from American territories
(including the Caribbean District) was late twice as often as Express Mail destined
within the 50 states. The report recommended that the Postal Service evaluate the
reasons for late deliveries for American territories and, if it is not possible to significantly
improve on-time delivery, determine whether they should adjust or eliminate
guarantees.

Additionally, we found refunds were often made with incomplete documentation and
missing certification or witness signatures. This indicates that unit managers were not
reviewing refunds as part of the close-out process to ensure each refund was properly
supported, certified, and witnessed. Units were not following procedures because they
were not aware of the requirements or failed to execute proper procedures. At six sites
we reviewed refund documentation and found $6,140 of unsupported refunds because:

    Four Express Mail refunds did not have a tracking slip attached to verify the actual
     delivery date and time.

    Nineteen refunds did not have adequate documentation supporting the refund.

    Three locations issued PVI refunds for 11 Express Mail transactions that were
     actually delivered according to the Postal Service Tracking and Confirmation
     system.



19
   The PVI is used to generate mailing labels that show the postage amount paid by the customer and the destination
ZIP barcode along with additional services if requested.
20
   Express Mail Guarantees (Report Number FF-AR-11-004, dated December 15, 2010).


                                                        13
Caribbean District Financial Risk                                                                     FF-AR-11-017



    One customer received two refunds for one package, once when the PVI transaction
     was cancelled and again when the package was delivered late.

    One unit used PS Forms 3533 from calendar year 199921 for several refunds.

 At five locations, we found 73 refunds that were not certified and/or witnessed, and
  48 PVI refunds with labels attached but not certified.

Employee Items

The Caribbean District’s unresolved employee items remain a high financial risk
compared to other districts. As of September 30, 2010, the district’s outstanding
employee items were valued at $135,295, compared to low-risk districts where
employee item balances were under $500. The Caribbean District had 167 of 252
outstanding employee items that remained unresolved beyond allowable time limits.22
Employee item risk is determined by how quickly units clear outstanding items. In
FY 2010, the Caribbean District reduced its unresolved employee item balance by
$87,144 to the $135,295 balance by filing claims for loss on items they could not collect.
They also began training unit managers on how to manage and resolve employee
items. However, four of the six units we reviewed did not have a formal system
established to monitor employee items. We found employee items being added to
records and no action being taken to clear outstanding items timely because unit
managers were not monitoring and reviewing outstanding employee items routinely.
Although unit managers are being trained on how to monitor and clear employee items,
they are not effectively executing the review process. When units do not comply with
employee item controls, the Postal Service is at risk of losing revenue and having
inaccurate financial records.

Banking Differences

In FY 2010 the Caribbean District had $506,975 in outstanding banking differences at
year end. 23 The Caribbean District’s unreconciled banking differences are a larger
percentage of sales compared to other districts, placing the district at high risk. Banking
errors occur for reasons such as mismatched daily bank deposits records, duplicate
transactions, and debit/credit card discrepancies. Units were not aware of financial
difference reconciliation requirements. However, the district realized that many of these
errors were the result of daily bank deposit discrepancies. As a result, the district asked
the bank to work with units to increase the accuracy of bank deposits.




21
   Current PS Forms 3533 should be dated August 2008.
22
   Handbook F-101, Chapter 15, specifies the time limits for resolving the various types of employee items. Time
limits range from 14 days to 1 year.
23
   The banking differences were comprised of $111,452 of shortages and $618,427 of overages.


                                                         14
Caribbean District Financial Risk                                                                        FF-AR-11-017




Our review found units did not:

        Monitor banking errors.
        Maintain a log of discrepancies.
        Understand the reconciliation process.
        Receive and/or use Narrowcaster24 reports to monitor and clear items.

When units do not clear banking differences, the Postal Service is at an increased risk
of fraud, unnecessary expenses, and lost revenue.

Unit Stamp Stock Management

The Caribbean District ranks high on the OIG PARIS model for segmented inventory
accountability examinations. As of September 30, 2010, only 81 percent of units
conducted their unit reserve and retail floor stock counts as required. Nationally,
95 percent of units were in compliance.

We examined the frequency and results of accountability examinations at six units.
Although retail floor stock examinations were being conducted, we found shortages
were five times higher than the national average (national average of .13 percent versus
a district average of .67 percent). For example, during our visit to the San Juan MOW,
we counted the retail floor stock — which the accounting system listed at $58,910.13 —
and disclosed a shortage greater than $22,000. We also found the unit had a
stamp-by-mail 25 accountability in the accounting system valued at $24,322 that had not
been counted in the past 3 years and exceeded the recorded balance by more than
$7,800.

Further, we observed the security of stamp stock was inadequate at two of the six units
visited. Photo 1 illustrates stamp stock security inadequacies at the San Juan MOW, as
stamps were left accessible to all plant personnel.




24
   Accounting Services sends Narrowcaster reports to units daily, weekly, monthly, and quarterly to notify them of
outstanding financial discrepancies. The data for these reports comes from the ADM.
25
   A free service that allows customers to obtain stamps, envelopes, and other postal products from letter carriers,
within PO lobbies, or by telephoning the local delivery unit to request its delivery. After completing an order and
enclosing a check, the customer drops the sealed envelope in a collection box or hands it to a letter carrier.


                                                          15
Caribbean District Financial Risk                                                                        FF-AR-11-017




                       Photo 1 – Unsecured Stock at the San Juan MOW




                 Source: OIG

We also observed that employees were unfamiliar with accountability procedures. For
example, the stock custodians at the Mayaguez and Charlotte Amalie POs did not
understand how to record unsalable stock in the inventory line item for conversion
stock. 26 We initially noted a shortage of $925 at the Mayaguez PO because the former
custodian had misplaced the conversion stock and told the current custodian to add the
count difference to conversion stock every time the count was conducted. We later
found the conversion stock, recounted it, and identified an overage of $949. At the
Charlotte Amalie PO, we found two un-cashed money orders, each valued at $545,
included with the unit cash reserve.27 These have remained in the safe since 2006
because the unit was not familiar with procedures to account for and destroy the money
orders. When units do not properly manage accountable items; the Postal Service is at
an increased risk for fraud, theft, and lost revenue.




26
   Unsalable stock in the unit inventory that has been marked for destruction but not returned to the stamp distribution
office.
27
   A pre-determined amount of cash used to supplement the operating needs of the unit.


                                                          16
Caribbean District Financial Risk                               FF-AR-11-017




                            Appendix D: Management’s Comments




                                           17
Caribbean District Financial Risk        FF-AR-11-017




                                    18
Caribbean District Financial Risk        FF-AR-11-017




                                    19
Caribbean District Financial Risk        FF-AR-11-017




                                    20
